U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 24, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Hamdi Mohamud v. Heather Weyker,
S.Ct. No. 21-187
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 6,
2021, and placed on the docket on August 10, 2021. The government’s response is due on
September 9, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 12, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0187
MOHAMUD, HAMDI
HEATHER WEYKER

COURTNEY ELGART
SULLIVAN & TRIGGS, LLP
1230 MONTANA AVENUE
SANTA MONICA, CA 90403
310-272-7732
CELGART@SULLIVANTRIGGS.COM
PATRICK MICHAEL JAICOMO
INSTITUTE FOR JUSTICE
901 NORTH GLEBE ROAD
SUITE 600
ARLINGTON, VA 22203
703-682-9320
PJAICOMO@IJ.ORG

